OIG Investigative Reports, Former Texas Tech Students Sentenced in Financial Aid Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
U.S. Attorney's Office
Northern District of Texas
FOR IMMEDIATE RELEASE:
Date: April 7, 2006
1100 Commerce St., 3rd Fl.
Dallas, Texas 75242-1699
Telephone (214) 659-8600
Fax (214) 767-0978
Website: http://www.usdoj.gov/usao/txn
Former Texas Tech Students Sentenced in Financial Aid Fraud Scheme
Two Texas Tech University students charged with federal offenses related to
the theft of funds from the U.S. Department of Education's Pell Grant Program,
administered and managed by Texas Tech University, were sentenced today in federal
court in Lubbock, Texas, U.S. Attorney Richard B. Roper announced today. The
Honorable Sam R. Cummings, United States District Judge, sentenced Rojelio Hernandez,
27, from Corpus Christi, Texas, to 30 months imprisonment and ordered him to
pay $122,751.00 in restitution. Judge Cummings also sentenced John Christian
Tsyitee, 28, of Lubbock, to 180 days home confinement, five years probation,
and ordered him to pay $14,043 in restitution. Judge Cummings ordered that Hernandez
surrender to the Bureau of Prisons on May 12, 2006.
According to documents filed in Court, Hernandez admitted that from April 2000
to February 2004, while he was a student at Texas Tech and working in the university's
student aid office, he caused the signing and submitting to the U.S. Department
of Education Free Applications for Federal Student Aid on behalf of students
at Texas Tech. Hernandez used false financial income information to qualify
the students to receive Federal Pell Grant funds when he well knew that the
income stated on the applications was false and that the students did not qualify
for the funds. The Federal Pell Grant Program provides funds to assist students
who are eligible for the program and who need those funds to meet the costs
of a post secondary education. The grants are considered financial assistance
to students who have serious financial needs and require financial aid in order
to be able to attend college and do not have to be repaid by the student recipient.
Rojelio Hernandez assisted students whose name and social security numbers
were brought to him by one of four individuals, Dorman "Dodd" Hawley, Vincente
Garcia Martinez, John Christian Tsyitee, and Gabriela Vazquez, who served as
"go betweens," serving as intermediaries between Hernandez and the Texas Tech
students they recruited. Hernandez and/or the intermediaries obtained the necessary
information from the students, such as each student's name, date of birth, social
security number, and other data required to file the false applications for
financial aid. The students were told that once the applications were processed,
they would receive a check in the mail which they were to cash immediately.
Hernandez and/or the intermediaries further instructed the students that they
would have to split the money with Hernandez and the intermediaries.
The "go-betweens" were charged with their role in the scheme and have been
sentenced. In addition to Tsyitee who was sentenced today, defendant Vincente
Garcia Martinez, 27, of Lubbock, Texas, and Gabriela Melissa Vazquez, 25, of
Dallas, Texas, were each sentenced last month to 180 days of home confinement
and five years probation. Martinez was also ordered to pay $26,910.00 in restitution
and Vazquez was also ordered to pay $29,098.00 in restitution. Dorman "Dodd"
Hawley is deceased.
Hernandez completed, signed, and submitted approximately 31 fraudulent signature
pages on the grant applications. Even after he left employment in the financial
aid office, he continued to remotely access the university's computer system
to continue the scheme. He altered or removed verification for approximately
26 students. In total, Hernandez falsely qualified approximately 33 students
as eligible to receive Federal Pell Grants. The students paid half of the money
they received to the "go-betweens," who in turn delivered the remainder to Hernandez.
Hernandez retained approximately $72,525.00 from the scheme for personal use.
The total amount of this part of the scheme is approximately $200,000.
While the investigation continues, the following defendants have pled guilty
to their role in the scheme and have been sentenced:
Nathaniel Beckman, 26 three years probation, $7,161.88 restitution Garland,
Texas $1588.12 cost of prosecution
Bryan Lee Hudspeth, 26 two years probation, $3,300.00 restitution Plano,
Texas
Abby Leann Mathison, 27 one year probation Lubbock, Texas
John Andrew Moretti, 25 two years probation, $4,775.00 restitution Lubbock,
Texas $1,825 cost of prosecution
James Wesley Sitz, 25 three years probation, $6,035.00 restitution Las Vegas,
Nevada
Justin Wayne Sitz, 25 three years probation, $6,375.00 restitution Austin,
Texas
Other defendants have been indicted in the scheme. On March 22, 2006, a federal
grand jury in Lubbock returned a 22-count indictment charging former Texas Tech
University students Jessica Ann Back, 26, of Grapevine, Texas; Jacob Edmond
Lustgarten, 25, of Austin, Texas; and Amanda Jayne Sheils, 25 of Colleyville,
Texas, with various offenses for their role in the scheme. The indictment alleges
they submitted fraudulent applications for Federal Pell Grants and fraudulently
and falsely received Federal Pell Grant funds for which they did not qualify.
U.S. Attorney Roper praised the investigative efforts of the Department of
Education - Office of Inspector General and the Federal Bureau of Investigation.
The cases are being prosecuted by Assistant United States Attorney Paulina M.
Jacobo.
Top
Printable view
Share this page
Last Modified: 04/12/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov